NO.

IN THE SUPREME COURT OF UNITED STATES

DANIEL TEKLE-PETITIONER
VS.
THE STATE OF VIRGINIA-DEPENDENT (S)
PROOF OF SERVICES
I, Daniel Tekle, do swear and declare that on this date, 16th May, 2021, as required
by supreme court Rule 291 served the enclosed MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS and PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel, and on every other person
required to be served, by depositing an envelope containing the above documents in
the United States mail properly addressed to each of them and with first-class
postage prepaid, or delivery to the third party commercial carrier for delivery within
three calendar days.

The names and addresses of those served are as follows:

1. UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT.
1100 EAST MAIN STREET. 5™ FLOOR. RICHMOND VA 23219.
2. OFFICE OF THE ATTORNEY GENERAL OF VIRGINIA 202 NORTH 9™
STREET. RICHMOND. VA 23219.
I declare under penalty of perjury that the forgoing is true and correct.
Executed on 17th May, 2021.

(Signature)
22

